Washington, D.C. 20530

October 7, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Tony B. Jobe v. National Transportation Safety Board
S.Ct. No. 21-469
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 24,
2021, and placed on the docket on September 28, 2021. The government’s response is due on
October 28, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time to and
including November 29, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which was
delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-0469
JOBE, TONY B.
NATIONAL TRANSPORTATION SAFETY BOARD

ROBERT M. LOEB
ORRICK, HERRINGTON & SUTCLIFFE LLP
1152 15TH STREET, NW
WASHINGTON, DC 20005
202-339-8400
RLOEB@ORRICK.COM
NAOMI J. SCOTTEN
ORRICK, HERRINGTON & SUTCLIFFE LLP
51 WEST 52ND STREET
NEW YORK, NY 10019
212-506-5000
NSCOTTEN@ORRICK.COM
ILYA SHAPIRO
CATO INSTITUTE
1000 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001
202-218-4600
ISHAPIRO@CATO.ORG

